                                         NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                 CLOSEOUT MEMORANDlTM

TO: AlGI         File Number: 198010001                                     Date: 6 June 2002

SUbject: Closeout Memo                                                                Page 1 of 1


      There was no closeout written at the time this case was closed. The following information was
      extracted from the file in conformance with standard closeout documents.

      Our office was informed that a companyl was alleged to have had the NSF logo on their homepage.
      OIG found that another companl had given the subject and other companies the NSF logo. This
      company had an NSF contract to run SBIR conferences as well as to put the SBIR catalog on the
      WWW.TheyhadacquiredtheNSFlogoforthatpurpose.This company is sending OIG a list of
      other companies that might be using the NSF logo.

      Accordingly this case is closed.




                  Prepared by:                     Cleared by:

                 Agent:          Attorney:       Supervisor:     AlGI

   Name:



 Signature &
    date:

      01G-02-2
